          Office of Inspector General

Control



March 30, 2006

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

HENRY A. PANKEY
VICE PRESIDENT, EMERGENCY PREPAREDNESS

SUBJECT: Audit Report – National Change of Address – Emergency
         Preparedness (Report Number IS-AR-06-005)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
actions to implement change of address (COA) procedures during a time of national
emergency (Project Number 05BG018IS001). Specifically, we reviewed the Postal
Service’s response to Hurricane Katrina related to the implementation of emergency
COA procedures.

                                        Background
The National Change of Address (NCOA) process provides a way for customers to
change their addresses manually using Postal Service (PS) Form 3575, Official Mail
Forwarding Change of Address Order, through the Internet or over the telephone. The
Gulf Coast was hit by Hurricane Katrina on August 29, 2005, while we were conducting
an application control review of the NCOA process. Postal Service operations were
greatly affected due to the loss of many facilities in the affected areas, while the COA
workload greatly increased from the displacement of over 1 million customers.

The U.S. Postal Service Office of Inspector General (OIG) established a task force of
auditors and investigators to review the Postal Service's Katrina activities. The
objectives are to assess internal controls; identify potential areas of fraud, waste,
and mismanagement; and evaluate the effectiveness of the Postal Service's actions.
The task force will make initial assessments, provide lessons learned, identify areas
that need improvement, and convey the positive actions the Postal Service took
during this significant event. We initiated an additional effort to assess the Postal
Service’s response to the hurricane and to cover the establishment and implementation
of emergency COA procedures. The OIG Task Force for Natural Disasters will
incorporate the results of this audit into a summary report.




                                              1
The Postal Service has created an Integrated Emergency Management Plan (IEMP),
which is an all-hazard comprehensive plan that is being implemented at the district
level. They developed the IEMP to meet the requirements of Homeland Security
Presidential Directive 5 (HSPD-5). The IEMP combines the procedures from current
stand-alone emergency plans and brings them into an integrated plan that satisfies
federal regulations and internal requirements.

During our review we met with key Postal Service officials to determine what COA
procedures the Postal Service used in response to Hurricane Katrina. As a result, we
determined Postal Service officials created and implemented emergency COA
procedures to redirect the mail to displaced customers affected by the hurricane. The
information provided in this report primarily describes Postal Service-wide post-Katrina
activities associated with the COA process.

                      Objective, Scope, and Methodology
Our objective was to assess the Postal Service’s actions to implement COA procedures
during a time of national emergency. During our review, we determined what additional
COA procedures the Postal Service created and implemented in response to Hurricane
Katrina. We discussed with key Postal Service officials the COA processes put in place
in various Postal Service departments to ensure displaced customers received their
mail in a timely manner. We assessed these procedures and are coordinating with the
Postal Service to ensure they incorporate the essential ones in a formal policy. The
OIG will make an overall assessment of the adequacy of IEMPs in a summary report.

We conducted this audit from October 2005 through March 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate. We did not validate the accuracy of the computerized statistical
data provided; rather we relied on Postal Service officials to provide us with the most
accurate information available.

                               Prior Audit Coverage
The OIG issued a report titled Performance Audit of the USPS National Change of
Address Program (Report Number DS-AR-99-001, dated March 1999) that assessed
the full costs of running the NCOA program. It was determined the benefits of the
NCOA program far outweigh the net costs of the NCOA program. (Note: the NCOA
program is now referred to as NCOA Link.) We recommended that management
ensure they recover the full cost of the benefit they provide to the licensee.
Management concurred with our assessment and agreed to take action by increasing
the annual licensing fee.




                                            2
National Change of Address – Emergency Preparedness                           IS-AR-06-005



The OIG issued a management advisory report titled Commercial Internet Companies
Offering Change-of-Address Services (Report Number OE-MA-03-003, dated
February 25, 2003) analyzing the options the Postal Service provided concerning
commercial Internet companies offering COA services. We determined it is more
prudent for the Postal Service to leverage commercial change-of-address services,
which will improve the overall accuracy of the address information and will reduce the
undeliverable-as-addressed mail. Management agreed with our conclusion and there
were no recommendations.

The OIG issued a management advisory report titled Postal Service’s Procedures to
Validate Change-of-Address Orders (Report Number OE-MA-03-005, dated May 21,
2003) which determined the adequacy of the process used to validate COA orders was
adequate, helped detect fraudulent orders, and prevented customers’ mail from being
unlawfully diverted. Management agreed with our conclusion and there were no
recommendations.

The OIG issued an audit report titled Address Change Service (Report Number TD-AR-
03-004, dated March 12, 2003) outlining the review of the Address Change Service
(ACS) program. This report identified that from September 2000 to July 2002, the
Postal Service processed approximately 300 million pieces of ACS mail and mishandled
20 percent of it. This resulted in unnecessary processing costs of over $20 million. We
recommended management develop necessary training materials, ensure managers
analyze ACS performance data and provide feedback to local post offices, and update
Handbook PO-602, Computerized Forwarding System Managers and Supervisors
Guide, to include guidance on ACS procedures. We also recommended management
update Publication 8, Address Change Service, to provide guidance concerning keyline
procedures and establish a dedicated customer concern unit to act upon ACS mailer
concerns. Management agreed with our recommendations (five of which were
considered significant) and, subsequently, has taken action. The recommendations are
now closed.

                                            Results

Postal Service officials responded diligently to Hurricane Katrina by creating new
procedures to redirect mail to affected customers under extremely tight time constraints.
We found the Postal Service could benefit from establishing and consolidating essential
COA emergency procedures in a formalized policy, such as the IEMP, for distribution
throughout the Postal Service. This will assist in providing improved guidance to Postal
Service officials in responding to future disasters.

Timely Response to Hurricane Katrina Aftermath

We commend the Postal Service for rapidly responding during the aftermath of
Hurricane Katrina and for redirecting the mail to over 1 million displaced customers. We



                                                3
National Change of Address – Emergency Preparedness                          IS-AR-06-005



believe they did an exemplary job implementing emergency COA procedures. Although
the Postal Service had limited COA emergency response procedures to work with, they
immediately formed a steering committee to create new procedures. The steering
committee consisted of key officials from all departments organization-wide who worked
nights, weekends, and over the Labor Day holiday to assess situations and adapt new
emergency procedures to redirect mail. The IEMP identifies the goal to redirect mail
when necessary, but does not include procedures specific to COA. The Postal Service
quickly identified a way to redirect a large volume of mail to over 1 million customers
with very few applicable procedures in place to help guide Postal Service officials’
response.

We believe the Postal Service should take advantage of “lessons learned” by capturing
some of these newly created emergency procedures specific to COA in a formal policy
such as the IEMP. We discussed the possibility of including essential procedures in
such a policy for distribution throughout the Postal Service. Postal Service officials
agreed it would be beneficial to establish COA emergency policies that give managers a
broader range of authority than current policy allows under normal conditions. As a
result of the Postal Service’s quick response to Hurricane Katrina, customers continued
to receive their mail in a timely manner.

Steering Committee

As a result of Hurricane Katrina, the Postal Service established an emergency steering
committee comprised of key officials from all involved departments to address the
redirection of mail. The steering committee members represented departments such as
Corporate Field Support Operations, Address Management Systems, Corporate
Customer Contact, Marketing Integration, Delivery and Processing Operations,
Consumer Policy and Strategy, Corporate Law, Corporate Information Security Office,
and the U.S. Postal Inspection Service. Some procedures put in place by these
departments are outlined below.

•   Corporate Field Support Operations provided a clear line of communication to senior
    vice presidents to approve new and specific emergency procedures.

•   Address Management Systems created Emergency Change of Address (ECOA)
    procedures. These procedures included, but were not limited to:
       o The creation of unique ZIP Codes and pseudo addresses. The Postal
         Service created pseudo addresses (using post office boxes) to connect
         customers with their mail while they were staying in large emergency shelters
         such as the Houston Astrodome and Louisiana Superdome.

       o The Postal Service created special PS Forms 3575 (ECOAs or 3575EMGs)
         for displaced customers to enter their COA information, including their new




                                                4
National Change of Address – Emergency Preparedness                                                       IS-AR-06-005



             pseudo addresses. Only hurricane victims that accepted pseudo addresses
             used these forms.

•   Customer Contact Solutions expanded their normal business hours (24 hours a
    day/7 days a week) at the call center for telephone COAs in an effort to ensure their
    availability to respond to customer requests.

•   Marketing Integration worked with major mailers to postpone delivery of mailings to
    customers affected by the hurricane and to avoid unnecessary accumulation of
    delayed mail.

•   Delivery Operations created temporary delivery units to sort and deliver mail to
    affected customers. This required them to obtain spare delivery equipment-carrier
    cases and roll bars1 to sort and organize the mail.

•   Processing and Operations created temporary facilities with equipment in an effort to
    expedite processing of recovered mail and redirect mail to affected customers.

•   Consumer Policy and Strategy, Corporate Law, and Address Management Systems
    worked with other agencies (such as the Federal Emergency Management Agency
    and The National Center for Missing and Exploited Children) to coordinate and share
    COA information while ensuring the agreements to protect customers’ privacy
    continued.

•   Corporate Information Security Office made changes to the COA applications to
    allow for the credit card waiver. They also made changes to USPS.com and the
    Blue Pages2 to ensure information reflected the most current situation in the
    hurricane-affected areas.

•   The Postal Inspection Service worked with Address Management Systems to add
    compensating controls while the waiver of the $1 credit card fee was in place.

As a result of the Postal Service’s quick response to this emergency, customers from
the affected areas received their mail in a timely manner.

Workload Increased Significantly

The Postal Service responded admirably to significantly increased COA workload
requirements after the hurricane. There were over 1 million displaced customers from
the affected areas. These customers were evacuated from their homes and placed in
temporary shelters, and many had to move several times. The Postal Service gave

1
 Roll bars are four-sided rods used with the carrier cases to enable one case to be used to sort four different routes.
2
 Blue Pages is the intranet website for Postal Service employees. The Blue Pages provide access to timely Postal
Service employee news and information.



                                                           5
National Change of Address – Emergency Preparedness                          IS-AR-06-005



customers three options to change their address: (1) manually, using PS Form 3575,
(2) through the Internet, or (3) over the telephone. They recommended using the
Internet and telephone in an effort to provide the quickest response. We compared
statistics based on customer use of these three methods.

The table below shows COA information the Postal Service collected manually through
PS Forms 3575 or 3575EMG for customers in hurricane-affected ZIP Codes. The
number of COAs processed from the affected areas almost tripled from September 1 to
November 15, 2005, compared to the same period last year.

             Manual COAs Processed September 1 – November 15, 2005

                                                COAs processed for customers in
                       Year                       hurricane-affected ZIP Codes
                       2004                                 200,103
                       2005                                 588,152

The graph below shows a trend of the Internet COAs processed for August and
September 2002 through 2005. It demonstrates the Postal Service processed more
Internet COAs in August than in September for these 3 years. However, for the month
of September 2005, Internet COAs increased significantly. In our opinion, the increase
in Internet COAs processed during September 2005 is a result of customers displaced
in the aftermath of Hurricane Katrina.

                         Internet COAs Processed 2002 - 2005


             800,000
             700,000
             600,000
             500,000
             400,000
             300,000
             200,000
                                August                   September

                               2002      2003     2004   2005


The table on the next page shows the statistics collected from August to October 2005
for COAs processed through telephone requests. The total number of changes for
September and October were nearly five times the number of changes for August. This




                                                 6
National Change of Address – Emergency Preparedness                             IS-AR-06-005



clearly demonstrates a significant increase in the telephone COA workload during the
aftermath of Hurricane Katrina.

                  Telephone COAs Processed August – October 2005

                           Month                      COAs Processed
                        August 2005                       18,218
                       September 2005                     51,364
                        October 2005                      37,854

Customer Friendly Activities

In order to more easily obtain temporary changes of address through the Internet or
over the telephone, the Postal Service, in responding to Hurricane Katrina, authorized a
waiver of the security requirement for charging a $1 fee to credit cards. They
considered this waiver necessary to respond to the critical situation for the evacuated
customers. The Postal Service implemented "compensating controls" in order to help
prevent fraud, which included:

  •    Checking for COAs from customers in hurricane-affected ZIP Codes where there
       were multiple addresses being changed to a single address.

  •    Notifying the affected mail carriers they were transferring mail from one of the
       hurricane-affected ZIP Codes to their current route.

  •    Asking Postal Service employees, carriers, clerks, and retail associates to be
       aware of and report suspicious incidents to their supervisors.

  •    Alerting responsible Postal Service employees to watch more closely for an
       unusually high volume of mail forwarded from multiple names and/or addresses
       from the affected area to specific street addresses and post office boxes.

While relaxing the $1 fee was necessary in order to accomplish what the Postal Service
needed to do within the given time constraints, we are concerned about this procedure
becoming official. We plan to continue monitoring this area in our application control
review of the COA process and will report any additional issues in the subsequent
report.




                                                7
National Change of Address – Emergency Preparedness                             IS-AR-06-005



Recommendation

We recommend the senior vice president, Intelligent Mail and Address Quality,
coordinate with the vice president, Emergency Preparedness, and other key Postal
Service officials to:

   1. Identify change of address emergency procedures the Postal Service established
      during Hurricane Katrina that could be useful in responding to future national
      disasters.

Management’s Comments

Management agreed with our recommendation. Management fully supports an effort to
formalize the lessons learned in the aftermath of Hurricane Katrina concerning
emergency COA procedures. During discussions subsequent to the formal response,
management stated that they plan to have this information documented in formal
procedures by October 31, 2006. Management’s comments, in their entirety, are
included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.

Recommendation

   2. Establish a Postal Service-wide steering committee with the authority to declare
      an emergency for a specific location and ensure the Postal Service takes action
      to maintain continuity of service during emergencies.

Management’s Comments

Management disagreed with our recommendation as stated and offered an alternative
approach. Management believes the support team established served a useful purpose
for the ad-hoc response required during the hurricane events and that establishing
additional structures will duplicate efforts. Management stated that processes are
already in place at all levels of the Postal Service for authorities to take emergency
measures to ensure continuity of operations for losses of individual or multiple facilities
due to man-made or natural disasters. Management has suggested that, in the event of
catastrophic events impacting large populations, the Postmaster General, upon the
advice of the Executive Committee, could implement emergency COA procedures.
During discussions subsequent to the formal response, management stated these
committees are already in place and considers this recommendation closed.




                                                8
National Change of Address – Emergency Preparedness                        IS-AR-06-005



Evaluation of Management’s Comments

Although management disagreed with the recommendation as stated, we consider the
comments acceptable and responsive to the recommendation. Management’s actions
taken should correct the issues identified in the finding.

Recommendation

We recommend the senior vice president, Intelligent Mail and Address Quality,
coordinate with the vice president, Emergency Preparedness, and other key Postal
Service officials to:

   3. Incorporate the procedures identified in recommendations 1 and 2 into formal
      policy, such as the Integrated Emergency Management Plan or other policies, to
      address Postal Service operations regarding change of address emergency
      situations.

Management’s Comments

Management disagreed with our recommendation as stated and offered an alternative
approach. Management stated that, given the unique circumstances that arise in large-
scale natural disasters, COA procedures may differ for each event. Management
suggested incorporating a generic reference into the IEMP that the authority to
implement emergency COA procedures resides with the Postmaster General. During
discussions subsequent to the formal response, management stated they will complete
the updates by November 30, 2006.

Evaluation of Management’s Comments

Although management disagreed with the recommendation as stated, we consider the
alternatives acceptable and responsive to the recommendation. Management’s
planned actions should correct the issues identified in the finding.

Recommendation

   4. Disseminate these emergency procedures throughout the Postal Service so that
      managers in affected areas of an emergency will have appropriate authority to
      timely respond to emergency situations.

Management’s Comments

Management disagreed with our recommendation as stated and believes the matter is
resolved for the reasons stated in their responses to recommendations 2 and 3.
Management stated that there is no reason to give wide-scale dissemination, other than
the incorporation of the quoted language proposed for recommendation 2 into the IEMP.


                                                9
National Change of Address – Emergency Preparedness                         IS-AR-06-005



During discussions subsequent to the formal response, management considered this
recommendation closed.

Evaluation of Management’s Comments

Although management disagreed with the recommendation as stated, we consider the
comments responsive to the recommendation. The suggested procedures described
relative to recommendation 2 and 3 sufficiently address this matter. Management’s
actions taken should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary Rippie, director,
Information Systems, or me at (703) 248-2300.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc:    Lee R. Heath
       Pat A. Mendonca
       Janice E. Caldwell
       Steven R. Phelps




                                                10
National Change of Address – Emergency Preparedness   IS-AR-06-005



                   APPENDIX. MANAGEMENT’S COMMENTS




                                                11
National Change of Address – Emergency Preparedness   IS-AR-06-005




                                                12
